BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae the Buckeye Institute,
Competitive Enterprise Institute, Clause 40
Foundation, Reason Foundation, Faith & Freedom
Coalition, and the Rutherford Institute in Support of
Petition for Writ of Certiorari in 21-69, John Allison
Huckabay v. State of Idaho, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 18th day of August, 2021:
Gene Clayton Schaerr
Schaerr I Jaffe
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-j affe .com

Counsel for Petitioner
Kale Dylan Gans
Office of the Attorney General for the State of Idaho
700 W. State Street
P.O. Box 83720
Boise, ID 83720-0010
(208) 334-4152
kale. gans@ag.idaho.gov

Counsel for Respondent

1

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Jay R. Carson
Counsel of Record
Robert Alt
The Buckeye Institute
88 East Broad Street, Ste. 1300
Columbus, Ohio 43215
(614) 224-4422
j.carson@buckeyeinstitute.org
robert@buckeyeinstitute.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 18, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Datei:rtJ::tf(
Notary Public

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

